No. 20 - 676

 

 

Bn The
Supreme Court of the Anited States

ao

J.P., BY AND THROUGH HIS GUARDIAN AD LITEM,
SHANNON VILLANEUVA,

Petitioner,

vs.
COUNTY OF ALAMEDA, DIANE DAVIS MASS,
and SUE MAY,

Respondents.
oo
On Petition for a Writ of Certiorari
To The United States Court of Appeals
For the Ninth Circuit

OG

AMENDED PROOF OF SERVICE OF BRIEF FOR PETITIONER J.P. IN REPLY
TO OPPOSITION OF RESPONDENTS COUNTY OF ALAMEDA, ET AL. TO
J.P.’S PETITION FOR A WRIT OF CERTIORARI

co
Darren J. Kessler Lizabeth N. de Vries
Kessler Law Office De Vries Law, P.C.
3060 El Cerrito Plaza, Suite 371 100 Pine Street, Suite 1250
El Cerrito, CA 94530 San Francisco, CA 94111
T./F.: (510) 524-7750 T: (415) 909-4009 / F: (628) 280-6514
E-mail: darren.j.kessler@gmail.com E-mail: liza@devrieslawsf.com

(Counsel of Record)

Co-counsel for Petitioner
J.P., by and through his Guardian Ad Litem, Shannon Villanueva
I, Lizabeth N. de Vries, do swear or declare that on this date, February 12,
2021, as required by Supreme Court Rule 29, I have served the enclosed BRIEF
FOR PETITIONER J.P. IN REPLY TO OPPOSITION OF RESPONDENTS
COUNTY OF ALAMEDA, ET AL. TO J.P.’S PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or that Party’s counsel, and on
every other person required to be served, by electronic mail transmission as
previously agreed in writing with said counsel pursuant to the strong
encouragement contained in this Court’s Wednesday, April 15, 2020 Order (Order

List: 589 U.S.).

The names, addresses, and email addresses of the parties/counsel served are:

 

Jo Ann Struck, Esq.

Haapala, Thompson & Abern, LLP
Park Plaza Building

1939 Harrison Street, Suite 800
Oakland, CA 94612
jstruck@htalaw.com

Counsel for Respondents
County of Alameda; Diane Davis Maas;
and, Sue May

 

 

Kristy van Herick, Esq.
County of Alameda

Office of the County Counsel
1221 Oak Street, Suite 450
Oakland, CA 94612

Kristy.vanherick@acgov.org

Counsel for Respondents
County of Alameda; Diane Davis Maas;
and, Sue May

 

 

As of the execution of this Declaration I have received no notification from my

email provider that the email transmission failed to be properly delivered to the

addressee.

I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 12, 2021.

beth N. de Vries
